UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




         Monitoring Building Leases


                Report No. OIG-AMR-45-05-02




                                              March 2005
INSPECTOR GENERAL




      NATIONAL LABOR RELATIONS BOARD
                       WASHINGTON, DC 20570

March 8, 2005

I hereby submit an audit on Monitoring Building Leases, Report No. OIG-AMR-
45-05-02. This audit was conducted to evaluate the process used by the
Agency to procure office space and determine whether the National Labor
Relations Board (NLRB or Agency) is adequately monitoring building leases.

The NLRB rented approximately 856,000 square feet of office space for its
operations during FY 2004. The General Services Administration (GSA), which
is the landlord for the Federal Government, procures this space for the Agency
in 22 Federally owned buildings and 31 leased buildings. The Agency also
rented from GSA 6,600 square feet of warehouse space to house new and
excess furniture and computer system backups. In its FY 2005 budget
request, the Agency's estimated expenditure for space rent is more than $29
million, approximately 12 percent of the Agency’s request. The Procurement
and Facilities Branch's (PFB) Facilities and Safety Section is responsible for
managing the Agency’s space acquisition program.

Generally, the Agency had effective controls over the procurement of space and
monitoring of building leases. Agency policy was generally followed in lease
actions active during FY 2004. The Agency has been proactive in attempting to
determine whether excess office space can be returned to GSA. Adequate
controls over space rent charges exist. The Agency does not actively monitor
whether it is receiving standard services because these are GSA responsibilities
and the Agency has generally not had problems with the provision of these
services. The Agency had adequate controls over the procurement of above-
standard services such as overtime utilities.

Each of the four field offices visited by the OIG had several vacant offices. Our
observations were consistent with an analysis of leased space performed by
PFB that was dated May 13, 2004. The PFB analysis also noted that most field
offices have one or two vacant offices. Generally, vacant offices are not
returned if the economic cost to release the space is greater than the projected
savings, a n d GSA will not take the space back if it is not available in
marketable blocks.

The Agency could put $6,756 to better use in FY 2006 by releasing parking
spaces that are not needed in four field offices and $563 per month if spaces
are released before then. On February 22, 2005, Operations-Management
provided the OIG with a memo containing research conducted related to the
excess parking spaces. They agreed to take action on six excess spaces and
determined that the space in Subregion 37 was operationally justified. The
actions being pursued by the Agency will save $5,040 in FY 2006.

An exit conference was held on February 14, 2005, with representatives of PFB.
A draft report was sent to the PFB Chief on February 14, 2005, for review and
comment. She generally agreed with our findings and the one recommendation
made in the report and stated that she would continue to work closely with the
Division of Operations-Management to ensure effective controls over parking
spaces.

Management's comments are presented in their entirety as a n appendix to this
report.



                                      p a n e E. ~ l t e n h o f e n '
                                       Inspector General
                                    TABLE OF CONTENTS

BACKGROUND ...................................................................................1

OBJECTIVES, SCOPE, AND METHODOLOGY .....................................2

FINDINGS...........................................................................................3

PROCUREMENT OF OFFICE SPACE ...................................................3

VACANT SPACE ..................................................................................3

       Walk-through of Office Space .....................................................4

RECEIPT OF LEASE SERVICES ..........................................................5

       Monitoring of Lease Services.......................................................5
       Above-Standard Services ............................................................6

CONTROLS OVER RENTAL PAYMENTS ..............................................6

PROCUREMENT OF PARKING SPACES...............................................7

RECOMMENDATION...........................................................................7

APPENDIX

     Memorandum from the Chief, Procurement and Facilities Branch,
     "Monitoring Building Leases (OIG-AMR-45)," dated February 23, 2005
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2005 appropriation authorizes 1,865 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for Administrative Law Judges. NLRB received
an appropriation of $251,875,000 for FY 2005, less an across-the-board
rescission of .8 percent, leaving a net spending ceiling of $249,860,000.

The NLRB rented approximately 856,000 square feet of office space for its
operations during FY 2004. The General Services Administration (GSA), which
is the landlord for the Federal Government, procures this space for the Agency
in 22 Federally owned buildings and 31 leased buildings. The Agency also
rented 6,600 square feet of warehouse space from GSA to house new and
excess furniture and computer system backups. In its FY 2005 budget
request, the Agency's estimated expenditure for space rent is more than $29
million, approximately 12 percent of the Agency’s budget request.

When the Agency requires new space or reaches the end of a lease term, the
amount of space needed is determined by using the NLRB/GSA Space
Allocation Standard, dated July 20, 1987. The standard states a maximum
amount of office space allowed for each employee based on the employee’s
position. The Agency also determines support space needed for the office, such
as hearing rooms and file rooms. The Agency provides its space and other
requirements, including the delineated geographic boundaries, to GSA.

If GSA determines that available space that meets the Agency's requirements
exists in a Federally owned space, GSA will place the Agency there and will
charge the Agency rent based on a market appraisal. If no adequate Federally
owned space exists, GSA will solicit offers for leased space. GSA will negotiate
on behalf of the Agency and select a space for the Agency. The rental charge is
based on a pass-through of the actual costs, plus a fee paid to GSA for its
services. The Agency will enter into an agreement with GSA to occupy the
space that GSA has procured. The Agency generally enters into 10-year leases,
with a Government option to vacate after 5 years.

The Procurement and Facilities Branch's (PFB) Facilities and Safety Section
(Facilities) is responsible for managing the Agency’s space acquisition program
and providing design services and oversight for construction and alterations.
Facilities also prepares and monitors the rental budget; manages services; and
periodically assesses the Agency's space utilization, space requirements, and
projected needs for expansions and reductions.


                                       1
                OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to evaluate the process used by the Agency to
procure office space and determine whether the Agency is adequately
monitoring building leases. Our scope included building leases held by the
Agency during FY 2004.

We interviewed employees in PFB to learn about the processes for procuring
space, preparing space for Agency use, and monitoring the billing and services
provided to the Agency. We interviewed employees in the field offices visited to
learn about spacing issues and the receipt and monitoring of services.

We reviewed laws and regulations relevant to facilities and the leasing process,
including the Federal Management Regulation. We reviewed the Agency’s
Administrative Policy and Procedures Manual Chapter FAC-2 (FAC-2),
Facilities/Space Management, revised November 30, 2002, for Agency
procedures for monitoring building leases. We reviewed the Agency's Space
Allocation Standard, dated July 20, 1987, and Supplemental Space Standards,
dated December 8, 1976. We reviewed the Agency's contracts with the National
Labor Relations Board Union (NLRBU) for items related to union involvement in
space procurement actions. We also reviewed guidance from GSA, including
the Customer Guide to Real Property and the Pricing Desk Guide.

We reviewed the occupancy agreements and leases for office space used by the
Agency. We examined documentation for lease actions that were active during
FY 2004 to determine whether Agency practices were followed and whether the
Space Allocation Standard was used to determine space requirements. We
recalculated the amounts paid in rent to determine whether the Agency was
being billed properly for rent and whether the Agency was receiving above-
standard services. We reviewed documentation received from the Budget
Branch and the Division of Operations-Management (Operations-Management)
to determine field offices with declining employment. We reconciled rental
payments to documentation obtained from the Finance Branch.

For each field office visited, we performed a walk-through of the office space to
determine whether Agency space was being used for its intended purpose and
to document any office space that was currently vacant. We evaluated whether
services were monitored to determine if services were being provided in
accordance with the occupancy agreement or lease. We also performed a walk-
through of warehouse space rented by the Agency in Washington, D.C.

This audit was performed in accordance with generally accepted government
auditing standards during the period of September 2004 through March 2005
at NLRB Headquarters in Washington, D.C., warehouse space in Washington,
D.C., and the following field offices: Region 1 – Boston, Region 5 – Baltimore,
Region 28 – Phoenix, and Subregion 33 – Peoria.


                                        2
                                 FINDINGS

Generally, the Agency had effective controls over the procurement of space and
monitoring of building leases. Agency policy was generally followed in lease
actions active during FY 2004. The Agency has been proactive in attempting to
determine whether excess office space can be returned to GSA. Adequate
controls over space rent charges and the procurement of above-standard
services exist. The number of parking spaces procured was not justified in
some Regions.


PROCUREMENT OF OFFICE SPACE

FAC-2 states that the amount of space assigned to each field office is based
upon the guidelines specified in the Space Allocation Standard. The Space
Allocation Standard identifies the square footage allowance for each employee
based on the employee’s position. The Agency’s contracts with the NLRBU
require that the Agency work with a national and a local NLRBU representative
on all plans related to space reallocation. The contracts also state that the
Agency shall provide an initial space layout for local management and the
NLRBU to review.

For the 13 lease actions that were active during FY 2004, the Agency followed
the Space Allocation Standard for determining the amount of office space
needed for each employee. Also, the NLRBU was a party to each of the 13 lease
actions active during FY 2004. For the five instances in which the action was
completed, both local management and the NLRBU signed the floor plan to
annotate the review.


VACANT SPACE

Executive Order 12411, Government Work Space Management Reforms, dated
March 29, 1983, states that the heads of all Federal Executive agencies shall
establish programs to reduce the amount of work space, used or held, to that
amount which is essential to known agency missions. FAC-2 states that all
NLRB facilities are periodically monitored to assess space utilization, space
requirements, and projected needs for expansions and reductions.

GSA guidance states that customer agencies have the right to return space to
GSA if a need for the space no longer exists. This space must be in marketable
blocks. GSA considers factors such as location, size, and predominant use in
concluding whether space is marketable. GSA also requires that an agency pay
the cost of any remaining unamortized alterations.




                                      3
The Agency has been proactive in attempting to determine whether excess
office space can be returned to GSA. Facilities stated that an annual analysis
of space use is performed to determine whether any space reductions are
possible. The latest analysis was dated May 13, 2004. As a result of these
efforts, the Agency returned to GSA approximately 13,400 square feet at
Headquarters and about 700 square feet at 3 field offices at the beginning of FY
2005. This space reduction could result in an estimated savings of
approximately $600,000 for FY 2005. This analysis also noted that most field
offices have one or two vacant offices.

Facilities considers factors such as the following when determining not to
return space:

   •   Returning all vacant office space is difficult because if the Agency must
       reacquire and build out space to meet staffing increases, the Agency will
       bear such costs;

   •   The space may not be of a sufficient size or type, such as an interior
       space, to allow the Agency to return the space to GSA; and

   •   Returning space might not be economic if the cost to release the space is
       greater than the projected savings.


Walk-through of Office Space

A walk-through of the four field offices visited showed the following results:

                                            Space Total Usable
          Region         Vacant Offices      (ft2) Space (ft2)       Percent
                         4 professional        540
    Region 1             1 support             100
                         Total                 640      15,583           4
    Region 5             5 professional        675      12,662           5
    Region 28            3 professional        405       9,854           4
    Subregion 33         6 professional        810       7,815          10
    Total                19                  2,530      45,914           6

The last annual space analysis produced results similar to the above for the
three Regional Offices shown above, but none were mentioned as possibilities
for space reduction in FY 2004. Subregion 33 was not subject to this analysis
because the office was going through a lease action at that time.




                                        4
PFB stated the following specific reasons for why space could not be returned
to GSA:

   •   Region 1 has high renovation costs due to the type of wall used in the
       building, so the cost of releasing a small space of four offices would likely
       be greater than the benefits;

   •   Region 28 is still in the portion of the lease that includes paying the
       tenant improvement allowance. Staff said that returning space during
       this part of the lease is difficult because the Agency must pay the
       unamortized portion of the tenant improvement allowance related to the
       returned space. Staff noted that the repayment to GSA comes out of the
       current year appropriation; and

   •   Because of a lack of alternatives in Peoria, Subregion 33 had to renew at
       the same location with the same amount of space. Staff also noted that
       the vacant space in Peoria would not be marketable.

Documentation obtained from Operations-Management showed that Region 5
was below its full-time equivalent ceiling at the time of our walk-through.
According to Operations-Management, Region 5 intends to hire an examiner
and additional space would be needed to house employees participating in the
Agency’s exchange program. PFB noted that space for the exchange program
would not factor into the analysis of needed space.


RECEIPT OF LEASE SERVICES

GSA is responsible for providing standard services. The Agency does not
actively monitor whether it is receiving those services. The Agency had
adequate controls over the procurement of above-standard services such as
overtime utilities.

Monitoring of Lease Services

GSA is responsible for providing or obtaining building services equal to
commercial buildings. These services include regular services such as trash
removal and periodic services such as window cleaning. The GSA OIG noted in
its report "Audit of PBS Lease Oversight Practices" that GSA is not monitoring
receipt of periodic services, is inconsistent in its oversight, and may rely too
heavily on tenants to identify substandard lease services.

The Agency does not actively monitor services to determine whether they are
being provided in accordance with the leases. Field offices visited stated that
while they do not actively monitor whether services are provided, they have


                                         5
generally not had problems with the provision of services. Field offices also
stated that they were notified prior to having periodic services performed.
Facilities added that GSA monitors the services and that the services are
usually provided properly, although some delays have occurred. Region 5
noted that the draperies have not been cleaned since the Region relocated in
February 1996.

Above-Standard Services

GSA provides above-standard services, including overtime utilities, to tenant
agencies at a cost above the rental payment. These services were procured by
the Agency through a Reimbursable Work Authorization (RWA) with GSA.
Facilities stated that the Agency obligates the amount estimated in the RWA,
but pays for actual usage.

Two field offices visited obtained overtime utilities from GSA, and these offices
appeared to have adequate controls over how the overtime utilities were
requested and used. Staff in another field office visited expressed concern that
overtime heating and air conditioning services were not provided in the
building, and management stated that overtime heating and air conditioning
services had never been provided.

The Agency obtained overtime utilities in four Regional Offices during FY 2004.
The Agency was not billed for overtime utilities in Region 28. For the three
Regional Offices located in Federal buildings, the amount paid for overtime
utilities was the same amount that was obligated. GSA staff stated that
because GSA is unable to identify actual usage, agencies are billed based solely
on the estimated amount.


CONTROLS OVER RENTAL PAYMENTS

FAC-2 states that the Space Management Specialist is responsible for reviewing
the monthly rent bills and working with GSA Realty Specialists to correct
identified discrepancies.

The Space Management Specialist reviews the monthly billing statements by
comparing them to the month before and noting when the bill changes in an
unexpected manner. The Specialist stated that he is unable to track the rental
payments to the leases or occupancy agreements because these amounts are
only estimates to help budget for the coming year. After reviewing the billing
statements, the Space Management Specialist would notify management in
PFB and staff in the Finance Branch and Budget Branch that the bill was
correct or that GSA had been contacted about discrepancies. Discrepancies
were followed up in the subsequent months until corrected.



                                        6
Adequate controls over the payments for space rent existed. The Agency was
slightly undercharged rent during FY 2004 because of an immaterial
understatement of the management fee charged by GSA.


PROCUREMENT OF PARKING SPACES

Operations-Management stated that the Agency obtains parking spaces for
vehicles leased from GSA, Regional Directors, and for accommodation under
the Rehabilitation Act if requested.

The Agency could put $6,756 to better use in FY 2006 by releasing parking
spaces that are not needed in four field offices and $563 per month if spaces
are released before then. Excess parking spaces are identified in the table
below.

                     Excess Field Office Parking Spaces

                                 Spaces  Spaces
                                Procured Needed       Excess       Cost
    Region 10                          5      2            3        $1,680
    Las Vegas Resident Office          2      0            2         1,440
    Region 34                          3      2            1         1,920
    Subregion 37                       1      0            1         1,716
    Total                             11      4            7        $6,756

Staff in PFB stated that parking spaces are marketable and that the Agency
has returned parking spaces in the past. PFB also stated that Operations-
Management notifies PFB when a parking space is available and can be
returned to GSA.

On February 22, 2005, Operations-Management provided the OIG with a memo
containing research conducted related to the excess parking spaces. They
agreed to take action on six excess spaces and determined that the space in
Subregion 37 was operationally justified.


                             RECOMMENDATION

We recommend that the Procurement and Facilities Branch Chief coordinate
with Operations-Management to eliminate excess parking spaces.




                                       7
APPENDIX
UNITED STATES GOVERNMENT
National Labor Relations Board
Division of Administration

Memorandum
                                                             f7
To:        Emil T. George,
From:      Angela F. Crawford
           Chief,
Date:      February 23, 2005
subject:   Monitoring Building Leases (OIG-AMR-45)


In response to your subject memorandum, dated February 7, 2005, we offer the
following comments on the draft Report No. OIG-AMR-45 on Monitoring Building
Leases.
We generally agree with the audit findings. We are also very pleased that you
acknowledged in your findings that we have effective controls over the procurement
of space and monitoring of building leases. With regard to the one area where you
 made recommendations, i.e., a handful of parking spaces in the field were not
justified, we will continue to work closely with the Division of Operations Management
to ensure effective control over parking spaces.
 We continue to believe that it is inappropriate to make reference to provisions of the
collective bargaining agreement in your report. The collective bargaining agreement
is not part of the underiying legal authority for the space management program, and
your reference to it under the circumstances is misleading and unnecessary.
Therefore, we believe that the reference to the contract provisions should be
removed from the report, particulariy as its removal has no substantive impact on the
report.
In closing, we would again note that the audit expanded well beyond the audit scope
that was described during the audit entrance conference, resulting in a significant
and unexpected impact upon the branch's resources during a time of other
significant program activity.
Thank you for the opportunity to share information on the space management
program.
